<html>
<title> - DRUG ENFORCEMENT ADMINISTRATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    DRUG ENFORCEMENT ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2012

                               __________

                           Serial No. 112-156

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-642                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b4c5b446b485e585f434e475b0548444605">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

BOB GOODLATTE, Virginia              ROBERT C. ``BOBBY'' SCOTT, 
DANIEL E. LUNGREN, California        Virginia
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
TED POE, Texas                       HENRY C. ``HANK'' JOHNSON, Jr.,
JASON CHAFFETZ, Utah                   Georgia
TIM GRIFFIN, Arkansas                PEDRO R. PIERLUISI, Puerto Rico
TOM MARINO, Pennsylvania             JUDY CHU, California
TREY GOWDY, South Carolina           TED DEUTCH, Florida
SANDY ADAMS, Florida                 SHEILA JACKSON LEE, Texas
MARK AMODEI, Nevada                  MIKE QUIGLEY, Illinois
                                     JARED POLIS, Colorado

                     Caroline Lynch, Chief Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 20, 2012

                                                                   Page

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     4

                                WITNESS

The Honorable Michele M. Leonhart, Administrator, Drug 
  Enforcement Administration, United States Department of Justice
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record:                                            35
    Submitted by the Honorable F. James Sensenbrenner, Jr., a 
      Representative in Congress from the State of Wisconsin, and 
      Chairman, Subcommittee on Crime, Terrorism, and Homeland 
      Security...................................................    36
    Submitted by the Honorable Robert C. ``Bobby'' Scott, a 
      Representative in Congress from the State of Virginia, and 
      Ranking Member, Subcommittee on Crime, Terrorism, and 
      Homeland Security..........................................    37
    Submitted by the Honorable John Conyers, Jr., a 
      Representative in Congress from the State of Michigan, and 
      Ranking Member, Committee on the Judiciary.................    38
    Submitted by the Honorable Steve Cohen, a Representative in 
      Congress from the State of Tennessee, and Member, 
      Subcommittee on Crime, Terrorism, and Homeland Security....    43
    Honorable Judy Chu, a Representative in Congress from the 
      State of California, and Member, Subcommittee on Crime, 
      Terrorism, and Homeland Security...........................    45
Prepared Statement of the National Community Pharmacists 
  Association....................................................    46


                    DRUG ENFORCEMENT ADMINISTRATION

                              ----------                              


                        WEDNESDAY, JUNE 20, 2012

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                             and Homeland Security,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10 a.m., in room 
2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, Jr., (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Marino, Adams, 
Goodlatte, Gohmert, Conyers, Scott, Pierluisi, Polis, Chu, 
Jackson Lee, and Cohen.
    Staff present: (Majority) Caroline Lynch, Subcommittee 
Chief Counsel; Bart Forsyth, Counsel; Tony Angeli, Counsel; 
Arthur Radford Baker, Counsel; (Minority) Bobby Vassar, 
Subcommittee Chief Counsel; Joe Graupensberger, Counsel; and 
Veronica Eligan, Professional Staff Member.
    Mr. Sensenbrenner. The Subcommittee will come to order. I 
would like to welcome Administrator Leonhart and thank her for 
testifying before the Subcommittee this morning. We all 
appreciate the DEA's efforts and great strides it has made to 
combat the increasingly dangerous drug trade. The 
Administrator's testimony comes at a timely moment as the war 
on drugs approaches a potential crossroads. On July 1, Mexico 
will elect a new president. By all accounts, Enrique Pena 
Nieto, of the Institutional Revolutionary Party, is leading the 
field.
    The PRI Government has governed Mexico for 71 years, until 
2000. While in power, the PRI minimized violence by turning a 
blind eye to the cartels. The current president, Felipe 
Calderon, has changed that strategy and aggressively confronted 
organized crime.
    As mentioned in your testimony, the key to the DEA's 
success along the Southwest border is our relationship with the 
Government of Mexico. You have characterized that relationship 
as at an all-time high, but are worried that our relationship 
could be at a high-water mark, with the impending change in the 
office of president.
    Mr. Nieto does not emphasize stopping drug shipments or 
capturing kingpins. He recently told the ``New York Times'' 
that while Mexico would continue to work with the United 
States, it, quote, Should not subordinate to the strategies of 
other countries. He further emphasized that his priority would 
be reduction in violence, not a dismantling of criminal 
organizations.
    By all accounts, this sounds like a reversion to the pre-
policies of old. We, of course, have no vote in the upcoming 
Mexican election, and our only hope for the outcome is that it 
is free and fair, but we do have a deep-seated interest in 
minimizing drug trafficking and organized crime south of the 
border. I believe that these goals are also in Mexico's long-
term interest, and I urge you to press this truth with the 
incoming Mexican president and his administration, regardless 
of who it is.
    I would also like to raise a few troubling incidents within 
the DEA. The DEA has long been a model in the law enforcement 
community, but today this Subcommittee will need answers about 
a few recent incidents that are both troubling and 
unacceptable. If not addressed swiftly and effectively, I fear 
these events will become a stain on the DEA's reputation, and 
ultimately undermine its law enforcement mission.
    The Secret Service has been the focal point of the 
Cartagena prostitution scandal, but I understand that at least 
three DEA agents also hired prostitutes during the preparation 
for the President's visit to Columbia. I further understand 
that this was not an isolated event for the DEA. The Secret 
Service has moved quickly to address the scandal and has 
already removed 8 of the 12 employees who have been implicated 
in this incident from their jobs. Another is in the process of 
losing his security clearance. To my knowledge, the DEA has not 
taken similar action.
    Similarly, while the ATF was a major factor in Fast and 
Furious, the DEA was also involved. Tony Coulson, the DEA's 
agent in charge of Southern Arizona during Fast and Furious, 
said that many DEA field agents knew that ATF was walking guns 
to Mexico, but supervisors told the agents to back off when 
they objected. Mr. Coulson was among the first senior public 
officials to admit knowing about this botched operation. He 
claims he raised objections to then DEA Chief Elizabeth 
Kempshall, and was told it was taken care of.
    After attending a meeting with the ATF agent in charge, 
Bill Newell, Coulson said he knew Fast and Furious was not some 
sort of benign pie-in-the-sky publicity stunt. Guns were 
actually getting in the hands of criminals, closed quotes. As 
with the Columbian prostitution incidents, I am not aware of 
any investigation or discipline from within the DEA.
    Most recently, this last April, a DEA office in San Diego 
literally forgot about a 23-year-old in a holding cell. DEA 
agents arrested Daniel Chong during a raid on a party in the 
San Diego area, where there were illegal drugs. After 
questioning him, the agents apparently told Mr. Chong that he 
would not be charged before they placed him back into a holding 
cell. The agents then forgot he was there. Mr. Chong remained 
locked in the holding cell for 5 days without access to food, 
water, or a toilet. He said he heard voices and yelled for 
help, but no one heard him. After 48 hours, he started 
hallucinating and to survive he drank his own urine. At some 
point during this neglect, he broke his glasses and attempted 
to kill himself.
    It goes without saying that this incident is extremely 
unacceptable, and I look forward to hearing what steps the DEA 
is taking to address each of the incidents discussed, and to 
ensure that nothing similar happens in the future. I hope that 
these events are anomalies in the DEA's record and not an 
indication of things to come.
    And I now yield to the gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I am pleased to join 
you in convening this oversight hearing on our Nation's Drug 
Enforcement Agency, and I want to thank Director Leonhart for 
years of dedicated service and for appearing before us today.
    I am also mindful that there are thousands of dedicated DEA 
employees who enforce our drug laws and directives every day, 
many of whom are putting their lives on the line to do so. 
Therefore, I consider it our responsibility in supporting and 
directing their efforts to ensure that their dedication and 
sacrifices are put to the most effective as well as productive 
use.
    The DEA is involved in drug enforcement activities all over 
the world; however, it is not clear that all of these 
activities are as effective or important as others in stopping 
or reducing the scourge of drug abuse. In general, there are 
supply-side strategies and demand-side strategies to reduce 
drug abuse. Research indicates the demand reduction through 
prevention, education, and treatment is much more effective 
than supply reduction through interdiction and law enforcement 
efforts.
    One study showed that the cost of reducing cocaine 
consumption in the United States by 1 percent, reducing cocaine 
consumption in the United States by 1 percent, the cost is $783 
million for source country control, $366 million for general 
interdiction activities, about $250 million for domestic law 
enforcement, or only $34 million for treatment of heavy users. 
Thus, the least costly supply control, that is domestic law 
enforcement, costs over 7 times as much as treatment to achieve 
the same consumption reduction.
    Another study showed that drug treatment saved an average 
of $7 in later prison and medical costs for every dollar spent 
on treatment. But, one of the big problems we have in this 
country with illegal drugs, as well as with illegal 
prescriptive drugs, is that there is a huge demand. The history 
on the war on drugs shows us that when there is a demand for 
the product suppliers will provide a way to provide it, no 
matter what the cost. History also shows that no matter how 
many tons of drugs we interdict or capture, it represents only 
a small fraction of drugs being trafficked. Therefore, while 
the evidence suggests that our efforts to reduce drug abuse 
have intensified in this country, the street price for some of 
the most dangerous drugs has actually gone down, while the 
quality has gone up, and drug use has increased or stayed the 
same during that time.
    Other evidence suggests that the massive drug enforcement 
effort in this country is the result of legions of users and 
street-level dealers being imprisoned for long periods of time, 
with huge strains in State and local budgets, with no 
discernible impact on the drug trade. Still other evidence 
suggests that while drug use in all major abuse categories 
among White Americans is as high or higher than drug use among 
Black and Hispanic Americans, a vast majority of those 
imprisoned for drug law violations are Black and Hispanic.
    For example, drug use data indicates that some 60 percent 
of crack cocaine users are White, while 94 percent of those 
imprisoned for crack are Black. Black Americans make up about 
12 percent of the population, but almost 50 percent of those 
incarcerated for illegal drugs. Moreover, drug penalties are so 
draconian that many are serving life sentences or the 
equivalent in years, even for first-time offenders, and 
mandatory minimum sentencing is a major contributing factor to 
the situation.
    When we consider the unfairness of so much of the burden of 
drug abuse being heaped upon African-Americans, the harshness 
of drug sentences, and the life consequences for drug 
conviction, such as loss of voting rights and subjection to 
employment discrimination, drastically lower employment 
prospects, we can see why Michelle Alexander considers the war 
on drugs to have ushered in a new era of Jim Crow, as she 
outlined in her book, ``The New Jim Crow Mass Incarceration.'' 
And we consider the effectiveness and the much higher cost of 
punitive supply reduction strategies compared to many times 
more effective and much cheaper demand reduction strategies, 
such as treatment, it is not hard to wonder whether there is a 
motive beyond drug abuse reduction in our strategy choices.
    Recently, I saw a news article of young drug offenders in 
their twenties, in Virginia, two of whom got sentences of 50 
and 35 years, respectively. No one seemed concerned about the 
average cost at $30,000 a year that this represented, $2.5 
million, to warehouse the drug abusers. And I was left to 
wonder whether or not that $2.5 million, some of that should 
have been spent on Boys and Girls Clubs, where they were 
cutting spending in that same area.
    So, Mr. Chairman, I look forward to hearing the Director's 
views on public policy implications of our agency's operations 
with respect to these grave concerns.
    Mr. Sensenbrenner. Thank you. The Chairman Emeritus, the 
gentleman from Michigan, Mr. Conyers, for an opening statement.
    Mr. Conyers. Thank you, Chairman Sensenbrenner. My first 
comment is to congratulate Ranking Member Bobby Scott on an 
excellent opening statement that tracks much of what I have 
been doing in preparing for this. I think the beginning of this 
discussion on the part of the Subcommittee on Crime can be one 
of the most important contributions that the House Judiciary 
Committee can make on the subject of the American criminal 
justice system.
    But, before I go any further, Chairman Sensenbrenner, I 
noted 14 issues that you raised with our distinguished witness, 
and I stopped counting after that. The question that I have, 
sir, is: Are we going to have an additional hearing to give Ms. 
Leonhart an opportunity to respond to each and every one of 
those?
    Mr. Sensenbrenner. Will the gentleman yield?
    Mr. Conyers. With pleasure.
    Mr. Sensenbrenner. That depends upon how responsive she is 
to the issues that I have raised. I think we all would like to 
get this wrapped up in one hearing, including Ms. Leonhart.
    Mr. Conyers. Well, thank you, sir. It was my impression 
that we could devote the rest of the next couple hours to a 
discussion between you and her about what you raised in your 
opening statement. So, I don't understand with a two, four, 
five, six----
    Mr. Sensenbrenner. Would the gentleman yield again?
    Mr. Conyers. Yes, sir.
    Mr. Sensenbrenner. The Chair knows from years and years 
that the current Chair enforces the 5-minute rule on himself as 
well as on everybody else.
    Mr. Conyers. Well, that is what makes it more difficult. I 
mean that is the problem that I am raising. With six Members 
here, and probably more to come, under the 5-minute rule, there 
is no way she can ever get to any kind of a cogent response to 
the issues that were raised, some of which are very serious. 
So, I leave that for us to discuss further, as we go on.
    I am very interested in this subject, because I started off 
my career on the Subcommittee on Crime when I first was able to 
get on the House Judiciary Committee. And this subject about 
drugs is extremely critical, and I am looking forward to a 
discussion. I have no problem with holding another hearing or 
as many hearings as necessary. We don't get any brownie points 
for having one hearing and no more. The question is how deeply, 
and thoroughly, and accurately do we go into these very 
important social and criminal justice questions.
    And so I would say to my colleagues and to our 
distinguished witness that the cost of the war on drugs is more 
than $1 trillion to date, astronomical, and yet, the same 
proportion of drug usage, illegal drug usage, continues at the 
same rate. And what I am looking for, in addition to the 
distinguished witness giving us a review of what goes on at DEA 
and what you are doing about it, is what kind of changes or 
what kind of creative, even imaginative ideas can we come up 
with to really do something about this? It seems to me that 
there are policies that might actually reduce consumption that 
may not have been tried yet, and I am hopeful that we can 
examine that.
    Another issue that we may or may not get to today----
    Mr. Sensenbrenner. The gentleman's time has expired.
    Mr. Conyers. Can I finish this sentence?
    Mr. Sensenbrenner. Certainly. Without objection.
    Mr. Conyers. It is important to figure out how we can 
minimize this criminalization and punishment concept by 
replacing it with health and treatment services. I mean if this 
is only lock them up and throw away the key, it doesn't, I 
don't think, shed much information, or light, or work in a 
substantively important way that this hearing this morning 
could bring to this subject.
    And I thank the Chairman for the additional time.
    Mr. Sensenbrenner. Without objection, all Members' opening 
statements will appear in the record.
    Before introducing Ms. Leonhart, I am going to get into a 
lock them up and throw away the key and decide not to charge 
them situation during the questioning and answer, so maybe that 
will address some of your concerns.
    It is now my pleasure to introduce today's witness. Michele 
Leonhart was unanimously confirmed as the Administrator of the 
Drug Enforcement Administration in December. She had been 
Acting Administrator since November of 2007, and served as the 
DEA's Deputy Administrator since 2004. Prior to becoming DEA 
Administrator and Deputy Administrator, she held several 
positions within DEA's Senior Executive Service. She was the 
special agent in charge of the DEA's Los Angeles field division 
from 1998 through 2003. She previously held the position as 
special agent in charge of the DEA San Francisco field division 
in 1997 and 1998.
    As a career DEA special agent, Ms. Leonhart held several 
key positions as she moved through the ranks of the DEA. In 
1995, she was promoted to the position of Assistant Special 
Agent in charge of the LA field division. Between 1993 and 
1995, she held management positions within DEA headquarters to 
include Career Board Executive Secretary, Office of 
Professional Responsibility Inspector, and Staff Coordinator in 
the Operation Division. She has been more than 30 years in law 
enforcement, beginning her career as a Baltimore City Police 
Officer, after graduating from college in Minnesota, with a 
bachelor of science in criminal justice in 1978.
    Without objection, Ms. Leonhart, your witness statement 
will be entered into the record in its entirety.
    I ask that you summarize your testimony in 5 minutes. And 
you know all about the green, yellow, and red lights in front 
of you.
    Ms. Leonhart.

TESTIMONY OF THE HONORABLE MICHELE M. LEONHART, ADMINISTRATOR, 
 DRUG ENFORCEMENT ADMINISTRATION, UNITED STATES DEPARTMENT OF 
                            JUSTICE

    Ms. Leonhart. Thank you. Chairman Sensenbrenner, Ranking 
Member Scott.
    Mr. Sensenbrenner. Could you please pull the microphone a 
little bit closer to you.
    Ms. Leonhart. Chairman Sensenbrenner, Ranking Member Scott, 
and Members of the Subcommittee, it is my honor to appear 
before you to discuss your oversight of the DEA and our role in 
reducing crime, protecting the American public from drugs, and 
increasing our Nation's security. Before highlighting DEA's 
programs and recent accomplishments, I want to first thank you 
for your continued support of our essential law enforcement 
mission. Your partnership is especially appreciated in light of 
the ever-changing challenges we face.
    Today, a hallmark of our many drug trafficking 
organizations is the increasingly global nature of their 
operations. Traffickers are using the latest technology to 
conduct their daily business from sophisticated communication 
devices and services, to laundering money through electronic 
value transfers, and they use innovative transportation 
methods, moving drugs in everything from planes, to tunnels, 
from wooden canoes, to fully submersible submarines, and we 
cannot let up or we will never catch up.
    DEA and our partners are successfully disrupting, 
dismantling, and destroying major drug trafficking networks. 
Our enforcement actions are reducing the availability of drugs 
and the harm they cause, and our efforts are integral to our 
Nation's comprehensive drug control strategy.
    One of the highest priorities for DEA today is stopping the 
diversion of prescription drugs and precursor chemicals from 
legitimate use. Today, more people abuse prescription drugs 
than those that abuse heroin, cocaine, and methamphetamine, 
combined. In response, the DEA has dedicated more agents to 
investigate criminal prosecution of prescription drug diversion 
than ever before, and our regulatory arm is dedicated to 
ensuring compliance with the law for those who manufacture, 
distribute, prescribe, or sell controlled substances.
    We have also helped the public help us reduce the supply of 
prescription drugs through our national prescription drug take-
back events, with assistance for more than 3,000 law 
enforcement partners in all 50 States. Our four take-back days 
have collected almost 800 tons of prescription medications that 
would have languished in medicine cabinets, where they could 
have been diverted. Soon, we will be implementing the Secure 
and Responsible Drug Disposal Act, which you passed into law. 
Through this law, DEA will be providing the Nation with a 
permanent solution to the problem of proper prescription 
disposal.
    DEA is also at the forefront of another emerging trend: 
Synthetic Drugs. And I want to thank you for the Committee's 
leadership in scheduling 26 substances used in products like K2 
and Spice, which will help us control and prevent these 
dangerous drugs from doing more damage. Unlike controlled 
prescription drug diversion, which is principally a domestic 
drug challenge, the majority of the organizations responsible 
for other drug threats operate internationally. The most 
immediate of these threats comes from Mexico-based criminal 
organizations and drug cartels. They are responsible for the 
vast majority of violence there, and increasingly in many 
countries, including Central America.
    In our operations there and elsewhere, DEA relies on our 
close ties with our brave international partners, and these 
relationships extend beyond on-the-ground operations and 
involve training, and intelligence, and resource sharing. DEA 
has close deep ties with Mexico relationships that will have an 
impact in turning what is a threat to their national security 
and rule of law into a law enforcement challenge. Indeed, our 
cooperation with the government of Mexico is at an all-time 
high.
    In addition to training, operational, and intelligence 
bonds, DEA and the Department of Justice have a judicial 
partnership with the government of Mexico that has resulted in 
nearly 250 extraditions since 2010. And this includes high-
Ranking Members from all the Mexico-based cartels, such as Jose 
Antonio Acosta Hernandez, who was sentenced to life in Federal 
prison in April, after admitting his role in 1,500 murders 
since 2008, including the triple homicide of a U.S. Consulate 
employee and two Consulate workers' family members.
    We share Mexico's responsibility and commitment to 
confront, fight, and defeat these poly-drug trafficking 
organizations, and take away the drugs, money, power, and 
freedom of their leaders. DEA is also working with the 
government of Afghanistan to counter the drug trafficking 
threat there. For example, just last week, Haji Bagcho, a 
notorious Afghan drug trafficker, with ties to the Taliban, was 
sentenced to life in prison on narco-terrorism charges in the 
U.S. His heroin was traced to 20 countries in 1 year. It is 
estimated that he supplied about 20 percent of the world's 
heroin supply. Thanks to the work of extraordinary DEA law 
enforcement personnel, supported by you, he will never be free.
    I have great confidence that DEA, with your support, will 
continue to meet and overcome these challenges and those that 
lie ahead, and they are not insignificant. From the growing 
list of designer synthetic drugs, to the reemergence of 
methamphetamine, from the increasing presence of drug 
traffickers in West Africa, to the emerging financial and 
communication tools being used by criminal organizations, and 
so many more, we have our work cut out for us. But, just 
because the mission is difficult does not mean we should give 
up or surrender. And some argue that legalization and 
regulation, even at the cost of untold human suffering and 
misery, would strip the traffickers of their enormous profits. 
Both common sense and history have taught us that those who are 
displaced from the drug trade migrate into other areas of 
criminality, and we have a responsibility, in a Nation of laws 
to enforce the law. And I have devoted my life to this duty, 
and all the people at DEA are committed to this goal and to 
this fight, a fight in which, with your support, we shall 
prevail.
    Thank you for the opportunity to speak to you today, and I 
ask that my written statement be added to the record----
    Mr. Sensenbrenner. Without objection.
    Ms. Leonhart [continuing]. Before taking your questions.
    [The prepared statement of Ms. Leonhart follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Thank you very much, Ms. Leonhart, for a 
very comprehensive statement. Let me use my 5 minutes to try to 
pack in as much as I can.
    First, let's get the issue of Daniel Chong, who was the 23 
year old who apparently was forgotten in a holding cell in San 
Diego after a decision was made not to charge him. Has anybody 
been disciplined as a result of this?
    Ms. Leonhart. Well, thank you for asking about that 
incident, Mr. Chairman. I am deeply troubled by the incident. 
DEA is deeply troubled by the incident. The incident was a 
mistake. It wasn't malicious, and it wasn't intentional. And 
during our 39-year history as an agency, we are not aware that 
anything like that has ever happened. And like you, the entire 
agency was shocked by what happened. And no one's more shocked 
than the agents and taskforce officers that were involved in 
the incident.
    Immediately upon learning about the incident, I ordered a 
review of our detention policies. We are currently fully 
cooperating with the Office of the Inspector General for 
Department of Justice, and they are conducting the 
investigation. But, in the interim, I ordered the assessment. I 
felt compelled to send a management team from a neighboring 
field division, Los Angeles, down to review what had happened, 
and I have personally spoken with all 21 of our Field Division 
SACs. We have entered into a discussion about how to make sure 
this doesn't happen any place else. We have put many different 
procedures in place already, and all 21 SACs have reviewed 
their policies and their procedures. They have initiated 
changes to ensure that this never happens again.
    Mr. Sensenbrenner. Well, that is nice to know.
    Now, let's talk about Cartagena. The Secret Service has 
been very public in disciplining, and, in fact, dismissing many 
of the agents who were involved in the prostitution scandal 
there. Have any of the DEA agents who were involved there been 
disciplined?
    Ms. Leonhart. Well, let me say that I am extremely 
disappointed by the conduct allegations in Columbia. These 
allegations are not representative of the 10,000 men and women 
that work for the DEA.
    Mr. Sensenbrenner. Well, I will stipulate that. And, you 
know, nor were the Secret Service Agents who were involved in 
their end of the scandal indicative of the people who work for 
the Secret Service. Most of them are dedicated. But, the Secret 
Service moved quickly. I have not noticed that the DEA has 
moved quickly at all to deal with this.
    Ms. Leonhart. Well, I can assure you, we moved immediately, 
very quickly. As soon as information was given to me by the 
director of the Secret Service, I brought the agents in 
question out of country and made them available to the OIG. 
Now, it is not being investigated by DEA, because the OIG has 
taken on the investigation. We are cooperating with them and 
making everybody available, all witnesses, and are assisting 
them wherever possible.
    The action that I could take, however, was I curtailed 
their tours in Columbia. They are presently on limited duty 
while the investigation is taking place. OIG is still 
completing interviews. So, it is not really appropriate for me 
to prejudge the results.
    Mr. Sensenbrenner. Okay.
    Ms. Leonhart. But, I guarantee you that if there was 
misconduct they will face our disciplinary process.
    Mr. Sensenbrenner. Okay. Now, have you investigated Mr. 
Colson's allegations relating to Fast and Furious, and if so, 
what has been the result there?
    Ms. Leonhart. Well, I could tell you that that, too, is 
still under review by the OIG. We're all interested in 
resolution there, so we can find out who knew what, when, and 
where. As far as Mr. Colson, you should know that we understand 
that he retracted his statement, and so we are waiting for the 
OIG review.
    Mr. Sensenbrenner. Now, was the part of the statement that 
Mr. Colson said, quote, Guns were actually getting in the hands 
of criminals, unquote, part of what he retracted?
    Ms. Leonhart. I believe he retracted all his statement. He 
said he was misquoted and retracted it. Beyond that, I am not 
aware.
    Mr. Sensenbrenner. Well, I think we know that guns have 
been getting in the hands of criminals. Well, you know, let me 
say, Ms. Leonhart, I think your answers have been inadequate in 
all three. There has been no discipline. The OIG works at its 
own pace. The Secret Service did take very, very quick action 
when the scandal came to light. And I will accept the 
suggestion that the Ranking Member of the full Committee, Mr. 
Conyers, has made to have another hearing.
    The gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Leonhart, Pew Research Center has estimated that any 
incarceration rate over 350 per 100,000 starts creating 
diminishing returns, and over 500 per 100,000 becomes actually 
counterproductive. You are adding to the crime rather than 
detracting from it. That is at 500 per 100,000. Our 
incarceration rate in the United States is over 700-and-some 
per 100,000. In minority communities in some States, it is as 
high as 4,000 per 100,000.
    What role does DEA policy play in over-incarceration in the 
ratio disparity, and what is DEA doing about it?
    Ms. Leonhart. Thank you, Ranking Member. I can tell you 
that the Drug Enforcement Administration, our mission is really 
to go after the world's biggest and baddest drug traffickers. 
We spend our resources, our work hours going after the largest 
drug traffickers, the sources of supply, the heads of 
organizations, and the heads of drug cartels, the heads of 
trafficking organizations, transportation organizations, those 
that most impact the drug supply on the United States.
    Mr. Scott. Well, has any DEA policy contributed to over-
incarceration and the racial disparity?
    Ms. Leonhart. Well, there are Federal drug laws that DEA 
enforces. You, as Congress, set the laws. We enforce the 
Federal laws. We go where our intelligence takes us. We go 
where the evidence takes us.
    Mr. Scott. Well, what is the policy of the DEA on mandatory 
minimums? They have been studied and found to be discriminatory 
and ineffective in reducing crime. What is the DEA policy on 
mandatory minimums?
    Ms. Leonhart. There is no policy for DEA on minimum 
mandatories. We go where the evidence is. If someone is 
trafficking drugs, we investigate that. We investigate their 
organization.
    Mr. Scott. You don't have a position supporting mandatory 
minimums as a crime-fighting tool, since they have been found 
to be discriminatory, and a waste of money, and ineffective in 
reducing crime? You don't have a position on mandatory 
minimums?
    Ms. Leonhart. We do our investigations, we conduct our 
operations without regard to the sentencing. But, the 
Department was very----
    Mr. Scott. Well, in terms of sentencing, when you are 
dealing with local, State, and Federal taskforces, there are 
allegations that some of the taskforce results have been 
referred to Federal court and some have been referred to State 
court. Federal court, where you have the draconian mandatory 
minimums, have been shown to have a discriminatory impact, 
because all the crack cases get sent to Federal court, where 
you can get 5 years mandatory minimum. And meth cases tend to 
be tried in State court, where they are not subject to those 
kinds of mandatory minimums. Is that DEA policy?
    Ms. Leonhart. That is not DEA policy. Again, we bring our 
most significant cases to Federal court. We bring the sources 
of supply and those responsible for the drug supply on the 
streets of the United States and much of the violence.
    Mr. Scott. Are you aware of that allegation?
    Ms. Leonhart. I am aware, and the Department of Justice has 
taken a position on the fair sentencing and the recent change 
with crack versus powder. The Department has been very 
supportive of that. Our role as investigators, though, is to 
investigate, follow the evidence, go after the most extreme 
traffickers, and that is what we do.
    Mr. Scott. Are you aware of the study that showed that you 
can reduce drug abuse by 1 percent with $35 million in 
treatment, and 250 and up for law enforcement side? Are you 
familiar with that study, and, if so, how does that affect the 
strategy of the DEA?
    Ms. Leonhart. Well, I don't know if it is the same study. I 
am familiar with studies that show the savings, you know, every 
dollar put into demand reduction, every dollar put into 
treatment. And that is why we are very supportive of the very 
balanced drug strategy that we currently have in the United 
States.
    The President's drug strategy is very clear, that you need 
demand reduction and prevention.
    Mr. Scott. And you are putting the same amount of resources 
in both?
    Ms. Leonhart. I am sorry, sir?
    Mr. Scott. You are putting similar resources in both?
    Ms. Leonhart. Well, actually, this past year there was more 
money spent on prevention and treatment than there was on 
domestic law enforcement.
    Mr. Sensenbrenner. The gentleman's time is expired. The 
gentlewoman from Florida, Mrs. Adams.
    Mrs. Adams. Thank you, Mr. Chairman.
    I want to go back over a couple of things earlier on. The 
issue with the San Diego holding cell, where this person was 
held, as you know, no need in rehashing it all, but, I just 
have a question. I listened to your answer.
    What was your current policy at the time this happened?
    Ms. Leonhart. The policies are different in the different 
field divisions. Some don't even have a holding cell. But, in 
San Diego, the standard policy is that anybody that is 
detained, and they are only detained in our field division for 
interviewing and processing, that the agents and taskforce 
officers in the group that brought that defendant in is 
responsible for him while he is there being processed, and is 
responsible until he is either brought to jail or released.
    Since this incident, that San Diego field division moved 
very quickly to put in a divisional order and policies and 
procedures that actually spell out what everyone's duty is. And 
we shared that with the 20 other field divisions, who have also 
put these in place.
    Mrs. Adams. So, in other words, there was no one assigned 
to make sure that that holding cell, or whatever you want to 
call it, was empty at the end of the day, so that no one was 
left behind.
    Ms. Leonhart. It is unwritten that it is always the 
responsibility of the group supervisors of the group 
responsible for the----
    Mrs. Adams. That is a no then. It is not written down, so, 
therefore, they didn't follow that type of procedure, because 
it is very apparent by what happened, which is, you know, as a 
former law enforcement officer, I am just so astounded and 
baffled by how this could happen.
    I know you have 226 domestic offices and 21 field divisions 
throughout the U.S., and 85 foreign offices in 65 countries, 
and they are all led by special agents in charge called SACs. 7 
out of 21 DEA field divisions are leaderless and have been for 
several months, and some for well over 1 year. These divisions 
include Boston, New York, Philadelphia, St. Louis, San Diego, 
Los Angeles, and the Caribbean. The New York post reported in 
April that the New York SAC vacancy is having a significant 
impact on agent morale. Although, there are acting SACs in 
these divisions, they may or may not feel empowered to make the 
decisions needed or policy changes needed, due to their acting 
status.
    And again, I am a former deputy sheriff, and knowing how 
important a stable chain of command is, knowing that your rank 
and file need to have the leadership, knowing that they need to 
have the direction, knowing that there should be policies and 
procedures in place, why are so many SAC positions vacant, and 
are you doing anything to fill these? And when will they be 
filled?
    Ms. Leonhart. Thank you for asking the question. In filling 
SAC vacancies, some are open for extended periods of time, but 
when a SAC leaves, retires, or is transferred, there is someone 
put in charge. It has only recently been that we have had a 
confirmed administrator, myself, who rose up through the ranks, 
and a confirmed deputy that causes this domino effect. And so, 
as we move our chief of operations into the deputy position, 
now we are moving the pieces, we are putting people in place. 
All of the field divisions that have been vacant have had very, 
very strong and good leadership.
    Mrs. Adams. So, you are working to fill them. because I 
have a lot more questions, and I want to get my time in.
    I have a question: Was the impact of there being an acting 
SAC in San Diego an issue with what happened?
    Ms. Leonhart. Not at all.
    Mrs. Adams. Okay. I know you said you have different 
policies for different areas. Wouldn't it be easier to set up a 
major streamlined policy for every one of your divisions to 
follow, and then those that have other things, like if you have 
a holding cell, you will make sure that before you close that 
office every day that you go through that holding cell. One, 
you sweep for people. Two, you sweep for any contraband. I 
would say that every time you put someone in, before you put 
them in, you make sure there is no contraband in, and every 
time you take them out, you do the exact same thing. But, when 
you leave every day, there should not be anybody in there to be 
left behind.
    One other question I have before I run out of time is: Is 
it still the policy of not allowing any of our agents that are 
working with Mexico, let's say, to be armed when across the 
border, and if so, why? Because as we know, we have lost one of 
our agents that did not and was not armed, and was murdered. I 
just want to know if it is still the policy. Are you still 
promoting that policy? Or are you trying to change that policy, 
so our men and women can protect themselves while on detail?
    Ms. Leonhart. Having been a former law enforcement officer, 
you know that the safety of our agents is more important than 
anything. And I would say because of their safety, I would be 
glad to talk to you not in this forum, to discuss those safety 
issues. And I am hoping that you respect that, and I would be 
glad to come and see you myself.
    Mrs. Adams. I look forward to discussing that. I yield 
back.
    Mr. Sensenbrenner. The gentlewoman's time is expired. The 
gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Sensenbrenner. I 
appreciate your announcing that there will be continued 
hearings about DEA and its role. You will note Madam Director 
that I originally pointed out in my remarks that we spend huge 
amounts of resources, and the rate of illegal drug activity 
continues at about the same pace. Have you been able to reflect 
on that in terms of how this keeps going on, and what we might 
be able to do about it?
    Ms. Leonhart. Thank you for the question, sir. I think 
there is a lot of misinformation and misperceptions about 
actually the drug situation, and especially when it comes to 
teens. So, I do want to tell you that 650,000 fewer teenagers 
are using drugs today than a decade earlier. And that is a 15 
percent decline. The balanced drug strategy that we have has 
played a role. Marijuana used by teens has dropped 7 percent. 
Methamphetamine has plummeted 67 percent. Ecstasy use has been 
slashed 42 percent. And cocaine use is down 40 percent since 
2006. Meth has dropped even more, and that is 50 percent since 
2006.
    So, we do see these drops in teen drug use. We also see the 
same corresponding drops in adult drug use. So, we are doing 
something correct with our drug strategy. And we believe that 
it is the three: The prevention, the treatment, the 
enforcement. You need all three. And that is one of the causes 
that we are seeing changes in drug use.
    Obviously, we are concerned with the uptick in prescription 
drugs, legal drugs, but we have been able to change the drug 
use. We have also been able to change availability of drugs on 
the streets, especially cocaine. And since 2006, since 
partnering with the Calderon Administration in Mexico, we 
actually have had sustained increases in the price of cocaine, 
and we have seen the purity plummet.
    Mr. Conyers. Well, this goes contrary, your statement, 
which is, I am happy to hear it, and, of course, you know, you 
are coming back before us, so I will have a chance to check 
what you are telling me against information that I have not 
validated yet. But, the statement that bothered me here was 
that the drug addiction rates, currently 1.3 percent in this 
country, are the same ratio as in 1971, and that we have spent 
over $1 trillion in appropriations fighting this war, and it is 
pretty stagnated.
    Are we just citing different pieces of information to 
support our positions, or is there some correctness in the 
citation that I just gave you?
    Ms. Leonhart. The figures that I am using are from the 
Monitoring the Future study, which has been used to look at and 
to track trends in teen drug use. It also comes from the 
statistics from Quest, on workplace drug testing. And if you 
are using the year 1971, and comparing it with this year, you 
have to remember that the highest rates of drug use, those 
years were 1974, 1975, and 1976. They spiked significantly 
after 1971. It is undisputed that we actually are having the 
lowest rate of cocaine use in this country in 30 years.
    Mr. Sensenbrenner. The gentleman's time has expired.
    Mr. Conyers. Thank you.
    Mr. Sensenbrenner. The gentleman from Puerto Rico.
    Mr. Conyers. Mr. Chairman, can I just point out that I want 
to continue this discussion outside of the hearing room between 
now and the next time we have the distinguished witness in.
    Mr. Sensenbrenner. Okay. The statement will be in the 
record.
    The gentleman from Puerto Rico, Mr. Pierluisi.
    Mr. Pierluisi. Good morning, Administrator. Thank you again 
for meeting with me in February to go over the public safety 
crisis we are facing in Puerto Rico and the U.S. Virgin 
Islands. You, as much as any other Federal official, have an 
intimate understanding of how serious this problem is. The 
number of drug-related homicides in Puerto Rico in recent years 
would be considered a national emergency if it were occurring 
in any State. That is not just my opinion. That is what Senator 
Rubio also stated during a hearing in December.
    Since our meeting, there have been several important 
developments. First, the House approved a CJS appropriations 
bill that notes that Federal efforts along the Southwest border 
have affected trafficking routes and crime rates in the 
Caribbean, and directed the attorney general to address these 
trends by allocating the necessary resources to U.S. 
jurisdictions in the Caribbean, and reporting back to Congress 
on the specific steps that have been taken.
    Second, about 2 weeks ago, Attorney General Holder was 
sitting where you are now. I asked him why it would not be 
appropriate for DOJ to increase the resources it devotes to 
Puerto Rico, even if it is only a temporary surge, just as the 
Federal Government did when there was a spike in violence on 
the U.S. side of the Southwest border. I acknowledged current 
budget constraints, but said that this is a matter of 
prioritizing limited resources, and making sure they are being 
allocated to the U.S. jurisdictions where the need is the 
greatest.
    The AG responded that DOJ is starting to embrace this surge 
concept, injecting agents and resources into what he called hot 
spots. That is areas that have seen a rise in violent crime. 
The attorney general said that Puerto Rico would certainly be a 
candidate for such a surge, because of the island's violent 
crime rate. I just hope that action follows those words.
    Third, the Appropriations just approved a bill today 
basically saying that we should have a counter-narcotic 
strategy for the Caribbean border, just along the same lines as 
the ones we have for the southwest and the northern border 
areas. That is great. I have been fighting for that, and it is 
about to happen. ONDCP will be told to do this, and to do it 
within 180 days from the time this appropriations bill becomes 
law.
    Now, your men and women in Puerto Rico are doing terrific 
work, Administrator. You know several weeks ago your agency led 
an operation that resulted in the arrest of dozens of airline 
workers in Puerto Rico who were smuggling drugs on flights to 
the mainland U.S. However, despite the recent staffing 
increases that you briefed me on when we met, I remain 
absolutely convinced that the DEA does not have enough agents 
in Puerto Rico.
    According to data provided to my office, there are nearly 
three times as many agents assigned to the Miami field office 
as there are to Puerto Rico, even though the island's 
population is 7.5 times greater than metropolitan Miami's, and 
our drug-related violence is off the charts. I want to be 
clear. I am not saying Miami doesn't have significant problems 
that you need to deal with. I am just providing this 
comparison, because you realize how under-resourced Puerto Rico 
is when you see this stat. So, I would like to hear your view, 
in terms of what you can do or not in staffing our office in 
Puerto Rico and the VI.
    Ms. Leonhart. Thank you, sir. We have met, and you know 
that the whole Caribbean region is of concern to the DEA. When 
we moved resources in 2002 from our other field divisions down 
to the Southwest border, we left the Caribbean alone, because 
we knew if we were successful on the Southwest border that we 
would start seeing impact in the Caribbean. So, San Juan, that 
field division has been very important to us, and I actually 
have increased the resources there. So, let me talk about those 
increases.
    In 2009, there were 83 agents assigned to San Juan and 
Ponce. I increased it to 95. In fact, I have done what we can 
to make sure that agents graduating from the academy and senior 
agents rotating in from foreign offices are assigned there. We 
will continue to try to give as many resources to Puerto Rico 
as possible.
    On the surge, know before your discussion with the attorney 
general about surges that DEA actually was surging in Puerto 
Rico a couple years back when you needed help with housing 
projects on the drug trafficking, and the murder rate, and the 
violence there. We responded by sending agents from MET Teams 
around the country into Puerto Rico for periods of time to help 
with that. And we will continue, even though we no longer have 
the MET program. We will look for ways to assist our agents and 
our fellow law enforcement officers in Puerto Rico with 
additional resources.
    Mr. Pierluisi. Thank you.
    Mr. Sensenbrenner. The gentleman's time is expired. The 
gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. Ms. Leonhart, 
welcome.
    I wanted to ask you about reports that DEA field agents in 
Southern Arizona were aware of the gun walking being done by 
ATF. Tony Coulson, the DEA's agent in charge of Southern 
Arizona during Fast and Furious, said that many DEA field 
agents knew that the ATF was walking guns to Mexico, but their 
supervisors told them to back off when they objected.
    Have you investigated who within the DEA knew what about 
Fast and Furious and why they did so little to stop gun walking 
to Mexico?
    Ms. Leonhart. Thank you, sir. As I mentioned earlier, those 
statements, as I understand it from Mr. Coulson, were actually 
recanted. He said he was misquoted and he has recanted that. We 
are very excited and we are waiting on these results from the 
OIG, because prior to Mr. Coulson's statements, we were not 
aware that DEA agents in Arizona were aware of the tactics that 
ATF was using.
    So, the investigation is being done by OIG. That should 
answer. We have made all our people available. That should 
answer the question about who knew what from my agency.
    Mr. Goodlatte. Did Mr. Coulson explain why he made the 
statements in the first place, if he later recanted them?
    Ms. Leonhart. I have not had any discussions with Mr. 
Coulson. I just know that right after there was a reporting of 
what he had said, he called our headquarters to say he did not 
say those things, and that he recanted his statements.
    Mr. Goodlatte. So he denied saying them. He didn't say them 
and then take them back, is what you are telling us?
    Ms. Leonhart. I heard both. But, hopefully, the OIG is 
going to interview him.
    Mr. Goodlatte. So you are relying on the Office of the 
Inspector General to investigate his statements and whether or 
not it is true that agents working under him were aware of the 
fact that gun running was taking place. Because, in fact, we 
know it was taking place, so it is not all that surprising that 
some DEA agents might know what was going on with regard to ATF 
activities in the same region. But, at the same time, our 
greater concern is why supervisors might have told the agents 
to, quote, back off, when they raised concerns about the wisdom 
of sending guns to drug dealers and others in Mexico that 
ultimately resulted in the death of a border patrol agent.
    So, you will report back to this Committee once you hear 
from the OIG, and let us know what actions have been taken to 
make sure that when people find out that wrongdoing is taking 
place that they are freely able to report it to their superiors 
and then have some interagency discussions between ATF and DEA 
to say, ``Hey, guys. What are you doing here, giving guns to 
people that we are trying to stop from smuggling drugs in the 
United States. It is not a good idea.''
    Ms. Leonhart. The OIG report will answer the questions 
about what our folks knew. The OIG was given the unilateral 
authority to investigate.
    Mr. Goodlatte. Well, we will welcome that. In my last 
minute here, I want to get in another area of interest.
    What assistance does the DEA give to State and local law 
enforcement to combat synthetic drugs?
    Ms. Leonhart. Thank you for that question. Since synthetic 
drugs is a new emerging, very troubling problem, I personally 
have been working with the chiefs and sheriffs, both of the 
National Sheriffs Association, but also of the IACP. They are 
the ones that first brought it to my attention that synthetics 
was a problem. and so we have given them considerable 
assistance, both in training classes. We have also offered our 
chemists.
    Mr. Goodlatte. What additional tools do you need that would 
make the DEA better able to combat synthetic drug abuse?
    Ms. Leonhart. Actually, this Committee just helped, and 
that was the scheduling of so many of those chemicals. That was 
number one.
    Number two, you have given us, you know, the support, our 
funding, our agent workforce that has allowed us to teach our 
agent workforce about this new and emerging trend. It has also 
allowed us to teach our State and local counterparts about the 
emerging trend. And we have been able to expand our 
investigations now internationally to go after the sources of 
supply that are actually supplying the chemicals showing up in 
our neighborhoods and then eventually being sold as Spice and 
K2.
    Mr. Goodlatte. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Sensenbrenner. The gentleman's time is expired. The 
gentleman from Tennessee, Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman.
    Ms., is it Lean-hart?
    Ms. Leonhart. It is Lin-hart.
    Mr. Cohen. Lin-hart.
    Ms. Leonhart. Think of the ``O'' being silent.
    Mr. Cohen. Thank you. Thank you, Ms. Leonhart. What is your 
budget?
    Ms. Leonhart. Well, currently----
    Mr. Cohen. Approximately.
    Ms. Leonhart. $2 million.
    Mr. Cohen. $2 million?
    Ms. Leonhart. I am sorry. $2 billion----
    Mr. Cohen. Yes. So about $2 billion.
    Ms. Leonhart [continuing]. Is salary and expenses. And then 
we have additional, with a fee account for our diversion 
program. So, total budget is----
    Mr. Cohen. It is over $2 billion.
    Ms. Leonhart. Yes.
    Mr. Cohen. Do you get any confiscation money? Do you get 
any monies from confiscations?
    Ms. Leonhart. I am sorry?
    Mr. Cohen. Do you get any money from confiscations of 
properties?
    Ms. Leonhart. You are talking about asset forfeiture.
    Mr. Cohen. Yes.
    Ms. Leonhart. There is money that the Department of Justice 
gives us from the asset forfeiture fund.
    Mr. Cohen. How much do you get from that?
    Ms. Leonhart. I would have to----
    Mr. Cohen. Do you have any idea at all?
    Ms. Leonhart. If you would give me a moment, I could----
    Mr. Cohen. I would rather not take the time for you to 
research your files. You don't know. Maybe one of your staff 
members can give it to you.
    Let me ask you this. What is your number one drug you are 
fighting? What is your priority?
    Ms. Leonhart. Well, our priority right now is 
pharmaceutical drugs.
    Mr. Cohen. All right. And what is your second priority?
    Ms. Leonhart. We don't prioritize specific drugs, because 
the organizations that we are going after are poly-drug.
    Mr. Cohen. So, you are not going after the drugs for the 
harm they do. You are going after the drugs, because of the 
effect it has on these organizations, and you are going after 
the organizations. Is that right?
    Ms. Leonhart. We are going after the organizations that are 
having the most impact on our communities, supplying the most 
drugs, and the most violence.
    Mr. Cohen. Right. So, it is the fact that meth, or crack, 
or heroin is causing the most damage to individuals. If that is 
not the number one choice of the crime syndicate, it is not 
your number one choice. Your number one choice is the crime 
syndicate, not the fact that heroin, and meth, and crack are 
destroying people's lives.
    Ms. Leonhart. No. Not correct. The organizations now have 
their poly-drug. So, for instance, the Columbian cartels, which 
are a priority----
    Mr. Cohen. Right. They have all these drugs, right?
    Ms. Leonhart [continuing]. Are the primary source for 
methamphetamine, cocaine, and a good amount of the heroin on 
the streets.
    Mr. Cohen. Right.
    Ms. Leonhart. They are a priority.
    Mr. Cohen. So, that is your number one priority, is going 
after that cartel.
    Ms. Leonhart. Our number one priority is going after those 
that most impact the United States.
    Mr. Cohen. Do most of those cartels, what are the drugs 
they emphasize in their arsenal?
    Ms. Leonhart. The Mexican cartels, poly-drug. It is 
cocaine, meth, heroin, marijuana.
    Mr. Cohen. Right. Marijuana is fourth. Would you agree that 
marijuana causes less harm to individuals than meth, crack, 
cocaine, and heroin?
    Ms. Leonhart. As a former police officer, as a 32-year DEA 
agent, I can tell you that I think marijuana is an insidious 
drug.
    Mr. Cohen. That is not the question I asked you, ma'am. 
Does it cause less damage to the American society and to 
individuals than meth, crack, cocaine, and heroin? Does it make 
people have to kill to get their fix?
    Ms. Leonhart. I can tell you that more teens enter 
treatment for marijuana.
    Mr. Cohen. Can you answer my question? Answer my question, 
please.
    Ms. Leonhart. I am trying to. It causes harm, because it is 
young people that are using it, if you are talking about the 
violence.
    Mr. Cohen. It is not just young people. But, you are trying 
to answer the question like I am Jeff Sessions. I am not 
Senator Sessions. I am asking you a question. Does meth, does 
crack, heroin cause more damage to society? Does meth and 
heroin cause more deaths than marijuana?
    Ms. Leonhart. All drug trafficking causes deaths. I don't 
have a breakdown of how many.
    Mr. Cohen. Does aspirin cause deaths?
    Ms. Leonhart. I am talking about the illegal drugs. I don't 
have a breakdown for you of how many deaths are caused by 
cocaine, and how many are caused by meth.
    Mr. Cohen. Let me ask you this. Have you ever seen a person 
who had cancer and used marijuana to help them eat or to relive 
their condition of suffering from terminal cancer?
    Ms. Leonhart. No, I have not.
    Mr. Cohen. And if you had, and I have, and seen that it 
helps them with their appetite, and makes them smile, would you 
agree that it has some benefit to society for somebody who is 
dying, maybe a Navy Seal, who spent his life working and 
defending this country, and is emaciated to 120 pounds, and 
that marijuana is the only thing that makes him eat, and makes 
him smile, according to his 80-year-old mother. Is there not an 
efficacious situation there?
    Ms. Leonhart. I think that is between him and his doctor.
    Mr. Cohen. Well, if it is between him and his doctor, why 
does the DEA take a position that medical marijuana is wrong, 
which you have taken. You have taken the position it is not 
between him and his doctor. You have a publication, which on 
page 6 of your publication, in 2011, has the most insane and 
banal paragraph. The legalization movement is not simply a 
harmless academic exercise. The moral danger of thinking 
marijuana is----
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentlewoman from California, Ms. Chu.
    Ms. Chu. Thank you, Mr. Chair. Ms. Leonhart, I represent a 
district in Los Angeles County, where 3 years ago a young 
rising star, an elected official in my district, Bobby Salcedo, 
was murdered by the Mexican drug cartel, when he was simply 
visiting relatives there. This tragedy is why my colleague, Mr. 
Poe, and I worked on legislation that would allow U.S. law 
enforcement to more easily freeze the illicit proceeds of 
international criminal organizations in U.S. financial 
institutions, in hopes of preserving those assets for future 
seizure.
    It corrected the situation, where the U.S. could only 
freeze assets of those engaged in criminal activity, once a 
final decision was made, and our legislation, which was signed 
into law, allowed U.S. courts to freeze assets once there was 
evidence of criminal activity.
    So, what role has this law, the Preserving Foreign Criminal 
Assets for Forfeiture Act, played in assisting DEA's financial 
investigations in interdicting the foreign criminals' money or 
laundering operations?
    Ms. Leonhart. First, let me thank you for bringing us that 
legislation. It has helped already. I am aware that more than 
$50 million has been frozen, because of that. So, we want to 
thank you for it, and know that with DEA, especially our 
international investigations that regularly are conducted, it 
is essential to our efforts that we have a way to freeze those 
assets in the middle of an investigation and during an 
investigation. We must be able to freeze the money for these 
foreign countries, and this has allowed us to do it.
    Ms. Chu. Thank you for that. I wanted to follow-up on your 
statement that cooperation between the United States and Mexico 
is at an all time high, and that, in particular, the DEA is 
grateful for the extradition relationship that you have with 
Mexico, because it is important, too, that criminals are 
brought to justice in this country.
    I wanted to know what you mean by the relationship is at an 
all-time high, and also, you talked about the extradition of 94 
and 93 individuals from Mexico in 2010 and 2011, respectively. 
I wanted to know, also, what the status is of those who have 
been extradited.
    Ms. Leonhart. Okay. The relationship with Mexico is at an 
all-time high, and I say that, because we now are working 
investigations jointly. We are able to develop partners in 
Mexico that we can share intelligence with, and they can 
actually take action on that, and vice-versa. They develop 
intelligence and are sharing it with us.
    We have representatives from the Mexican Federal Police, 
the SSP, and from the PGR, that are even sitting in our El Paso 
intelligence center. So that is a true partnership. Especially 
working the violators the cartel heads that are most important 
to Mexico, working with them, we have doubled the number of 
high-value targets that they have been able to arrest in Mexico 
by sharing this intelligence.
    On the extraditions, a number of these extraditions, the 
folks have already been prosecuted, and are serving sentences 
in the United States, many significant sentences.
    The other thing that Mexico has done by extraditing them to 
us is those that cooperate after being incarcerated are really 
giving us a clear picture as to how the Mexican cartels are 
operating, and that has helped us and Mexico, because we share 
that information, determine the best way to go after those 
cartels and those traffickers.
    Ms. Chu. How many have been convicted and sentenced?
    Ms. Leonhart. I can get you those numbers. I don't know. 
Many have pled guilty. So a good number of them have pled 
guilty and many have been convicted.*
---------------------------------------------------------------------------
    *The Subcommittee had not received this information by the time 
this hearing record was submitted for printing on February 19, 2013.
---------------------------------------------------------------------------
    Ms. Chu. And how has it impacted the drug trafficking and 
violence along the border?
    Ms. Leonhart. Well, especially of the high-value targets, 
who are the heads or lieutenants of the cartels that we have 
been able to incarcerate. It has helped Mexico, because they 
have been able to take the people that have been able to have 
the power to corrupt Mexican officials. They now are in jail 
cells in the United States, no longer able to run their 
operations. So, it has affected the drug supply as well.
    Together, we have done such damage to the cartels that that 
is why you see these drops in availability of cocaine on the 
streets of the United States, and the price up and the purity 
down.
    Mr. Sensenbrenner. The gentlewoman's time has expired. The 
gentleman from Colorado, Mr. Polis.
    Mr. Polis. Thank you, Mr. Chair. I would like to begin by 
following-up on my colleague Mr. Cohen's questions, and I want 
to try to get a clear answer, to make sure the Drug Enforcement 
Administration is aware of some of the evidence.
    Is crack worse for a person than marijuana?
    Ms. Leonhart. I believe all illegal drugs are bad.
    Mr. Polis. Is methamphetamine worse for somebody's health 
than marijuana?
    Ms. Leonhart. I don't think any illegal drug is good.
    Mr. Polis. Is heroin worse for someone's health than 
marijuana?
    Ms. Leonhart. Again, all drugs----
    Mr. Polis. I mean either yes, no, or I don't know. I mean 
if you don't know, you can look this up. You should know this 
as the chief administrator for the Drug Enforcement Agency. I 
am asking you a very straightforward question.
    Is heroin worse for someone's health than marijuana?
    Ms. Leonhart. All illegal drugs are bad.
    Mr. Polis. Does this mean you don't know?
    Ms. Leonhart. Heroin causes an addiction.
    Mr. Polis. Okay.
    Ms. Leonhart. It causes many problems, so it is very hard 
to kick.
    Mr. Polis. So, does that mean that the health impact of 
heroin is worse than marijuana? Is that what you are telling 
me?
    Ms. Leonhart. I think you are asking a subjective question.
    Mr. Polis. No. It is objective. Just looking at the 
science. This is your expertise. I am a lay person, but I have 
read some of the studies and aware of it. I am just asking you 
as an expert in the subject area, is heroin worse for someone's 
health than marijuana?
    Ms. Leonhart. I am answering as a police officer and as a 
DEA agent that these drugs are illegal, because they are 
dangerous, because they are addictive, because they do hurt a 
person's health.
    Mr. Polis. So, heroin is more addictive than marijuana. Is 
heroin more addictive than marijuana, in your experience?
    Ms. Leonhart. Generally, the properties of heroin, yes, it 
is more addictive.
    Mr. Polis. Is methamphetamine more addictive than 
marijuana?
    Ms. Leonhart. Well, both are addictive.
    Mr. Polis. Well, is methamphetamine more highly addictive 
than marijuana?
    Ms. Leonhart. I think some people become addicted to 
marijuana and some people become addicted to methamphetamine.
    Mr. Polis. You mentioned that your top priority, I believe 
you indicated to us, is abuse of prescription drugs. Is one of 
the main classifications of prescription drugs painkillers that 
you are concerned about?
    Ms. Leonhart. That is correct.
    Mr. Polis. And are those painkillers addictive?
    Ms. Leonhart. Yes, they are very addictive.
    Mr. Polis. Are those painkillers more addictive than 
marijuana?
    Ms. Leonhart. All illegal drugs in schedule one are 
addictive.
    Mr. Polis. Well, again, this is a health-based question, 
and I know you obviously have a law enforcement background, but 
I am sure you are also familiar, given your position with the 
science of the matter, and I am asking, you know, again, 
clearly, your agency has established abuse of prescription 
drugs as the top priority. Is that, therefore, an indication 
that prescription drugs are more addictive than marijuana?
    Ms. Leonhart. All illegal drugs are addictive.
    Mr. Polis. Okay. Your agency has established abusive 
prescription drugs as its top priority. You have indicated as 
much to us. Does that mean that abuse of prescription drugs is 
a greater threat to the public health than marijuana?
    Ms. Leonhart. Because it is an emerging threat, because 
people are turning to prescription drugs faster than any other 
drug, that is why we prioritized it.
    Mr. Polis. Well, in many States, including my home State of 
Colorado, we have a legalized and regulated regime of medical 
marijuana, and we have found some great degree of success in 
combating the abuse of prescription drugs by making sure the 
patients have access to medical marijuana, which the science 
indicates, and I would certainly encourage you to look at the 
science is less addictive and less harmful to human health than 
some of the narcotic prescription drugs that are abused, and 
also, when they are used on label, they can be very harmful to 
health as well.
    Would your agency consider supporting medical marijuana 
provisions when that can be used in pursuit of your top 
priority, which is reduce the abuse of prescription drugs. If 
it can be documented that the use of medical marijuana helps 
reduce the abuse of prescription drugs, is that something you 
are willing to pursue?
    Ms. Leonhart. Well, Congress has determined that marijuana 
is a controlled substance, and DEA's tasked with enforcing 
Federal law.
    Mr. Polis. You mentioned priorities, though, and you said 
top priority, reducing abuse of prescription drugs. One tactic 
to do that would be use of medical marijuana, and I wanted to 
make sure again, top priority, in pursuit of your top priority, 
are you willing to look at the use of medical marijuana as a 
way of reducing abuse of prescription drugs?
    Ms. Leonhart. We will look at any options for reducing drug 
addiction.
    Mr. Polis. Thank you.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member.
    Administrator Leonhart, thank you for your appearance here 
today. And having been in Phoenix a couple of weeks ago, let me 
express my appreciation for the service of the Drug Enforcement 
Agency officers, their professionalism, and as well, the work 
that is done in Houston, Texas, where we are the center point, 
if you will, for a number of issues dealing with gun 
trafficking, and, as well, the confluence, if you will, of 
money, drugs, and guns. And so, we are well aware of the 
importance of collaboration.
    I am going to ask a series of quick questions, and 
appreciate helping me get as much on the record as I possibly 
can. What is the importance of collaboration between the major 
Federal law enforcement? I use as an example, FBI, DEA, ATF, 
and others, along with those that I represent on Homeland 
Security. What is the importance of that?
    Ms. Leonhart. Well, ma'am, let me start by saying that 
State and local participation has been DEA's bread and butter 
for the 39 years we have been an agency. And you combine that 
partnership with the partnerships that we have developed with 
other Federal agencies, I don't think there is anything 
stronger, anything more effective at attacking violent crime, 
attacking drug trafficking than having taskforces.
    So, to answer that, especially in the Houston----
    Ms. Jackson Lee. My question is: Is the collaboration 
strong, positive, continuing, and do the administrators of the 
respective agencies encourage that collaboration?
    Ms. Leonhart. Yes.
    Ms. Jackson Lee. Okay.
    Ms. Leonhart. We are probably collaborating now more than 
before.
    Ms. Jackson Lee. Great. Let me move to Fast and Furious for 
a very brief question. Has there been a thorough investigation 
of DEA's contact or involvement by the OIG?
    Ms. Leonhart. Yes. We made all of our employees in the 
Phoenixville division and----
    Ms. Jackson Lee. So, any questions regarding supervisor 
directions to don't say anything, all of that has been 
investigated. Is that correct?
    Ms. Leonhart. It is being investigated. Yes.
    Ms. Jackson Lee. Being investigated, and all documents will 
be able to be accessed, or the final report will be able to be 
accessed on that issue.
    Ms. Leonhart. Yes. We are all awaiting the OIG finalizing 
the investigation, and the report.
    Ms. Jackson Lee. And would you be able to submit that to 
this Committee once it is finalized?
    Ms. Leonhart. Yes. I would have to defer to the inspector 
general, but usually the OIG reports are made public.*
---------------------------------------------------------------------------
    *The Subcommittee had not received this information by the time 
this hearing record was submitted for printing on February 19, 2013.
---------------------------------------------------------------------------
    Ms. Jackson Lee. Let me move forward and as I said, quick 
questions. What is the extent of drug trafficking on tribal 
land? Can I just get brief answers, because I have a series 
here?
    Ms. Leonhart. Yes. There is a serious substance abuse 
problem on tribal land, especially in the last 5 years, with 
prescription drugs. Their big problem used to be alcohol and 
methamphetamine, but more recently----
    Ms. Jackson Lee. And so, what are we doing? The DEA has a 
focus on that? I want to know that we have a problem, and I 
believe it is, and do we have focus in some of your----
    Ms. Leonhart. Absolutely. We have established very good 
relationships with the other law enforcement agencies, both the 
FBI and Bureau of Indian Affairs, and other tribal law 
enforcement, and have done joint investigations. We depend on 
them to tell us, you know, who are the traffickers, who are 
those most impacting the supply on Indian lands, and then 
jointly work with them, sharing intelligence, and we have had 
many successes on those lands.
    Ms. Jackson Lee. Right. Let me ask you, there have been 
many requests by members, how is the Ryan Republican budget, 
the budget that would cut resources, how devastating would that 
be? And let me follow-up, so you can answer these questions. I 
am very concerned about bath salts. I know we talked about 
synthetic, but focused on bath salts, and particularly the 
impact that it just had in Houston, Texas. A story I refer you 
to, KHOU, Channel 11, specifically talked about a heinous 
incident with bath salts, and an individual, David Peterson, 
who died on a Galveston street. He was found disoriented, and 
in extreme physical deterioration. And then I would appreciate 
your comment about DEA officers and physician officers, and 
pain pills, and whether or not the response is excessive, 
whether you think we are being fair to doctors on those 
investigations.
    Mr. Sensenbrenner. Do you have all points of that 
multifaceted question?
    Ms. Leonhart. The last question I had a hard time hearing.
    Ms. Jackson Lee. Thank you, Mr. Chairman. The efforts with 
DEA officers dealing with physicians and pain pills, there has 
been sort of a surge of closing physician offices, arresting 
them. I am wondering, are we being excessive, are we being 
careful, because you are literally shutting down professionals, 
who may be legitimately issuing----
    Mr. Sensenbrenner. Okay. The witness will answer.
    Ms. Leonhart. Okay. I will start with the, you asked about 
the budget.
    Ms. Jackson Lee. Yes.
    Ms. Leonhart. You know, these are austere budget times, and 
we will work within what money is given to us, and we will 
prioritize accordingly. As to the synthetic drugs, and I am 
glad you bring that up, an emerging problem that concerns us, 
this Committee has just helped give us the biggest tool we can, 
and that is controlling some of those chemicals, those 
substances.
    In your area, for instance, our agents have opened a number 
of investigations, both on bath salts and on K2 and Spice. And 
they have been pretty successful in assisting State and local 
officers on those types of investigations as well.
    Your third question about, you know, physicians, and pill 
mills, and pain clinics, Houston is very troubling, because 
they have a pill mill problem. And it is not like in Florida, 
with OxyContin. It is Hydrocodone that is the problem there. 
And we have many investigations, successful investigations, and 
we have arrested and prosecuted some very egregious doctors. 
And let me say that the doctors that are affiliated and 
operating these pill mills, and working within these pill 
mills, they are not practicing medicine. They are not giving 
examinations to patients. These pill mills are just open for 
pill distribution, and those are the physicians, those are the 
clinics that we have targeted, using our intelligence or using 
undercover investigations, and we have been very successful in 
the Houston area.
    Mr. Sensenbrenner. The time of the gentlewoman has expired.
    Ms. Jackson Lee. Mr. Chairman, let me thank you for your 
courtesies. Could I put a question on the record to be answered 
in writing, please?
    Mr. Sensenbrenner. Yes, you can. And that will be taken 
care of with the UCs that I am about ready to propound. Thank 
you, Ms. Leonhart, for coming. We look forward to seeing you 
come back here. You might look forward to seeing us again, 
might not do that, but thank you for your testimony today. I 
think it has been helpful to all of the Members.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional questions for the witnesses, 
which we will forward and ask the witness to respond as 
promptly as they can, so that their answers may be made a part 
of the record.
    Without objection, all Members will have 5 legislative days 
to submit additional materials for inclusion into the record.
    And with that, again, I thank Ms. Leonhart. And without 
objection, this hearing is adjourned.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

                       Questions for the Record*
---------------------------------------------------------------------------
    *The Subcommittee had not received a response to its questions by 
the time this hearing record was submitted for printing on February 19, 
2013.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
